No. 20-5085

In the Supreme Court of the United States
JOE EDWARD JOHNSON, Petitioner,
v.
STATE OF CALIFORNIA, Respondent.

PROOF OF SERVICE
I, L. LOZANO, declare that I am employed in the Office of the Attorney General,
which is the office of a member of the California State Bar, at which member’s
direction this service is made. I am 18 years of age or older and not a party to this
matter; my business address is 1300 I Street, Suite 125, P.O. Box 944255,
Sacramento, CA 94244-2550. On October 16, 2020, I served the attached BRIEF IN
OPPOSITION by placing a true copy thereof enclosed in a sealed envelope with
postage thereon fully prepaid, in the United States Mail at Sacramento, California,
addressed as follows:
Andrew Charles Shear
Supervising Deputy State Public Defender
Office of the State Public Defender
1111 Broadway, Suite 1000
Oakland, CA 94607
Counsel for Petitioner
Stephen K. Dunkle
John T. Philipsborn
California Attorneys for Criminal Justice
1555 River Park Drive, Suite 105
Sacramento, CA 95815
Amicus Curiae

Alison Plessman
Counsel of Record
Sara Haji
Shannon Cott
Amber Munoz
Hueston Hennigan LLP
523 West 6th Street, Suite 400
Los Angeles, CA 90014
aplessman@hueston.com
Counsel for Amicus Curiae
I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, and that this declaration was executed on
October 16, 2020, at Sacramento, California.
L. Lozano
Declarant

/s/ L. Lozano
Signature

